                     Opportunities Exist to Improve the
                     Effectiveness and Efficiency of the
                        Automated 6020(b) Program

                                    March 2005

                       Reference Number: 2005-30-053




This report has cleared the Treasury Inspector General for Tax Administration disclosure
review process and information determined to be restricted from public release has been
                              redacted from this document.
                                             DEPARTMENT OF THE TREASURY
                                                  WASHINGTON, D.C. 20220




INSPECTOR GENERAL
     for TAX
  ADMINISTRATION




                                                     March 31, 2005


      MEMORANDUM FOR COMMISSIONER, SMALL BUSINESS/SELF-EMPLOYED
                     DIVISION



      FROM:                         Pamela J. Gardiner
                                    Deputy Inspector General for Audit

      SUBJECT:                      Final Audit Report - Opportunities Exist to Improve the
                                    Effectiveness and Efficiency of the Automated 6020(b) Program
                                    (Audit # 200330032)


      This report presents the results of our review of the Internal Revenue Service’s (IRS)
      Automated 6020(b) Program. The overall objective of this review was to determine
      whether the IRS is effectively using the Automated 6020(b) Program to improve filing
      compliance among business taxpayers. Internal Revenue Code (I.R.C.) Section (§)
      6020(b)1 provides the IRS with the authority to prepare and process certain returns for a
      nonfiling business taxpayer if the taxpayer appears to be liable for the return, the person
      required to file the return does not file it, and attempts to secure the return have failed.2
      In summary, the IRS consolidated its Automated 6020(b) Program operations into one
      location in 2002 and works only employment tax returns. For Tax Year 2001, the IRS
      estimated the gross tax gap3 attributable to the underreporting and underpaying of
      employment taxes was $73.3 billion. However, the IRS has not extensively used the
      Automated 6020(b) Program to address filing noncompliance throughout most of the
      past decade due to various organizational changes, programming problems, and
      funding issues. The number of direct hours the IRS applied to the Automated 6020(b)


      1
        I.R.C. § 6020(b) (2004).
      2
        I.R.C. § 6020(b) also gives the IRS authority to prepare individual income tax returns. The Automated Substitute
      for Return Program prepares delinquent individual income tax returns based on information documents received
      from employers and financial institutions reporting wages, dividends, interest, nonemployee compensation, and
      other types of income.
      3
        The gross tax gap is the difference between the taxes taxpayers owe the Federal Government and the amount of
      taxes they voluntarily pay. The tax gap totals are for all taxpayers, as the IRS did not estimate the amount for
      employment tax nonfilers.
                                                         2

Program steadily declined from a high of 43,209 in Fiscal Year (FY) 1993 to a low of
1,151 in FY 2001 before increasing to 1,309 in FY 2002. The number of direct hours
applied increased to 6,542 in FY 2003 after the Automated 6020(b) Program was
centralized at the Ogden Campus.4 The amount of taxes assessed by the Automated
6020(b) Program declined from $206.8 million in FY 1998 to $3.6 million in FY 2002.
The tax assessments increased to $60.6 million in FY 2003.
We identified four ways in which the Automated 6020(b) Program could be improved to
more effectively and efficiently address filing noncompliance. First, the successful
operation of the Automated 6020(b) Program remains a significant challenge for IRS
management because of an outdated computer system that results in inefficient manual
work processes. During the first 6 months5 of FY 2004, tax examiners assigned to the
Automated 6020(b) Program spent 57 percent of their time (1,494 of 2,618 staff hours)
working lists of rejected cases that could not be automatically downloaded from the
Automated Collection System (ACS).6
Second, opportunities exist to expand the Automated 6020(b) Program to reduce filing
noncompliance by business taxpayers. Currently, only “stand-alone” Taxpayer
Delinquency Investigations (TDI)7 that meet a relatively narrow low-dollar criterion are
assigned to the Automated 6020(b) Program. As a result, the download from the ACS
for FY 2004 (through June 2004) was limited to only 26,201 tax periods of nonfiled
employment tax returns. By comparison, we estimate that TDIs for approximately
562,000 tax periods of nonfiled employment tax returns were assigned to the Collection
Field function (CFf)8 or the Queue9 during the same 9-month period10 and that, as of
June 2004, the Queue inventory included approximately 1.7 million employment tax
TDIs. In all likelihood, these included a considerable pool of stand-alone TDIs that, due
to resource constraints, are unlikely to be assigned to the CFf and could, instead, be
made available for the Automated 6020(b) Program. In addition to the authority to
prepare various types of employment tax returns, I.R.C. § 6020(b) gives the IRS the
authority to prepare excise tax returns.11 Although the IRS previously used this


4
  The campuses are the data processing arm of the IRS. They process paper and electronic submissions, correct
errors, and forward data to the Computing Centers for analysis and posting to taxpayer accounts. A campus is
organized into three functions: Submission Processing, Accounts Management, and Compliance Services.
5
  This excludes the 6-week period from November 23, 2003, through January 3, 2004, when documentation was not
available.
6
  The ACS is a computerized inventory system that maintains certain balance due accounts and return delinquency
investigations. The ACS function attempts to resolve these cases by contacting the taxpayers by telephone.
7
  A TDI involves a taxpayer who has not filed a required tax return. A stand-alone TDI is one for which there are no
Taxpayer Delinquent Accounts (i.e., balance due accounts) involving the same taxpayer.
8
  The CFf is the unit consisting of field employees who handle personal contacts with taxpayers to collect delinquent
accounts or secure unfiled tax returns.
9
  The Queue is an automated holding file for lower-priority cases.
10
   The estimate is based on the Treasury Inspector General for Tax Administration analysis of Collection Activity
Reports (CAR). The CARs are IRS management information reports that provide information about Collection
function inventory and disposition.
11
   Excise tax returns include the Heavy Highway Vehicle Use Tax Return (Form 2290) and the Quarterly Federal
Excise Tax Return (Form 720).
                                                         3

authority, only employment tax returns have been worked since the Automated 6020(b)
Program was centralized at the Ogden Campus in 2002.
Third, overstated unemployment tax assessments on IRS-prepared returns can result in
unnecessary burden for the employers as well as unnecessary work and unfavorable
publicity for the IRS. During the period October 1, 2002, through December 31, 2003,
these formulas resulted in overstated tax assessments on 36 of 47 substitute
unemployment tax returns prepared by the IRS for which the proposed tax was
$20,000 or more.12 The unemployment taxes assessed by the Automated 6020(b)
Program averaged $126,716 for these 36 cases. By comparison, the unemployment
taxes reported on the prior year and subsequent year returns filed by these
36 employers averaged only $3,758 and $5,474, respectively, per return.
Finally, improvements are needed to ensure undelivered mail is worked before tax
assessments are made. We reviewed undelivered tax proposal letter packages for
28 taxpayers covering 76 tax periods and found that, for 57 of the 76 tax periods, the
time period to respond to the initial letters had expired, and the IRS had processed the
Automated 6020(b) Program returns before the undelivered mail was reviewed and
worked.
To improve the effectiveness and efficiency of the Automated 6020(b) Program for
addressing filing noncompliance by business taxpayers, we recommended the
Commissioner, Small Business/Self-Employed (SB/SE) Division, replace the computer
system supporting the Automated 6020(b) Program with one that interfaces with the
ACS and the Integrated Data Retrieval System (IDRS)13 or one that receives its
inventory directly from the IDRS, raise the dollar criterion for assigning stand-alone TDIs
to the Automated 6020(b) Program to pick up additional cases that may otherwise
remain indefinitely in the Queue, modify the programming for the Automated 6020(b)
Program system to add TDIs involving nonfiled excise tax returns, evaluate the
computation used for assessing proposed Federal unemployment tax assessments, and
revise the Mail Routing Guide to provide specific instructions for the handling and
routing of undelivered mail for the Automated 6020(b) Program.
Management’s Response: The Commissioner, SB/SE Division, concurred with the
recommendations. The Commissioner, SB/SE Division, recognized the gains that can
be achieved by the Automated 6020(b) Program system having interface with the IDRS
and ACS. The Commissioner has submitted systemic change requests regarding this
concern, and these changes will be operational in 2006. The Commissioner will explore
additional opportunities to increase the cases worked by the Automated 6020(b)
Program, which could include raising the dollar level of risk-based criteria for
stand-alone TDIs as well as adding excise tax returns. The Commissioner evaluated
the computation used by the Automated 6020(b) Program for assessing Federal


12
   The audit team used “total tax of $20,000 or more” as its dollar criteria for identifying the 47 substitute
unemployment tax returns prepared by the IRS.
13
   The IDRS is a system which enables IRS employees to have instantaneous visual access to certain taxpayer
accounts.
                                           4

Unemployment Tax Act14 taxes and found that basic systemic calculations, using a Last
Period Satisfied liability to determine taxable wages, are accurate. The Commissioner
has revised the Mail Routing Guide to include specific instructions for handling and
routing undelivered mail.
While the Commissioner, SB/SE Division, agreed with our recommendation to raise the
dollar criterion for assigning stand-alone TDIs to the Automated 6020(b) Program to
pick up additional cases, the Commissioner disagreed with our outcome measure. The
Commissioner stated that, although the Automated 6020(b) Program could create a
potential increase in revenue, the Program’s primary goal is to encourage taxpayers to
file outstanding returns or determine whether a tax liability exists. The Commissioner
does not agree with the outcome measure because the potential assessment may not
equate to the concomitant amount of additional revenue collected. Management’s
complete response to the draft report is included as Appendix V.
Office of Audit Comment: Regarding the recommendation to raise the dollar level of the
risk-based criteria for stand-alone TDI cases to increase the workload coming into the
Automated 6020(b) Program, we agree the Automated 6020(b) Program is not intended
to create revenue. However, our analysis showed that increasing the administratively
set dollar ceiling would increase the number of cases coming into the Automated
6020(b) Program, which would potentially result in an increase in revenue.
Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Philip Shropshire, Acting Assistant Inspector General for Audit (Small Business and
Corporate Programs), at (215) 516-2341.




14
     26 U.S.C. §§ 3301-3312 (2003).
                 Opportunities Exist to Improve the Effectiveness and Efficiency
                               of the Automated 6020(b) Program




                                                  Table of Contents


Background ............................................................................................... Page 1
The Effectiveness of the Automated 6020(b) Program
Has Been Limited by Organizational Changes,
Programming Problems, and Funding Issues ........................................... Page 3
The Automated 6020(b) Program Operations Are Hampered
by Inefficient Manual Processes................................................................ Page 7
         Recommendation 1: .......................................................................Page 12

Opportunities Exist to Expand the Inventory of the Automated 6020(b)
Program .................................................................................................... Page 12
         Recommendations 2 and 3: ...........................................................Page 17

Overstated Tax Assessments Were Made on Unemployment
Tax Returns Prepared by the Automated 6020(b) Program ...................... Page 18
         Recommendation 4: .......................................................................Page 21

Improvements Are Needed to Ensure Undelivered Mail Is Worked
Before Tax Assessments Are Made .......................................................... Page 21
         Recommendation 5: .......................................................................Page 23

Appendix I – Detailed Objective, Scope, and Methodology....................... Page 24
Appendix II – Major Contributors to This Report ....................................... Page 27
Appendix III – Report Distribution List ....................................................... Page 28
Appendix IV – Outcome Measures............................................................ Page 29
Appendix V – Management’s Response to the Draft Report ..................... Page 31
             Opportunities Exist to Improve the Effectiveness and Efficiency
                           of the Automated 6020(b) Program

                                  Federal law requires employers to withhold Federal income
Background
                                  taxes and Social Security and Medicare taxes from their
                                  employees’ wages. Employers are also generally required
                                  to pay a matching amount of Social Security and Medicare
                                  taxes on behalf of each employee. On a monthly or
                                  semiweekly basis, employers must deposit the income taxes
                                  withheld and the employer and employee shares of the
                                  Social Security and Medicare taxes with an authorized
                                  depositary for Federal taxes. In addition, employers are
                                  required to deposit Federal unemployment taxes on a
                                  quarterly basis. The payment of these various employment
                                  taxes provides a substantial portion of the Federal
                                  Government’s budget and is a key component of the
                                  voluntary tax system.
                                  Employers must report the employment taxes withheld from
                                  their employees on the Employer’s Quarterly Federal Tax
                                  Return (Form 941). Employers are also responsible for
                                  filing the Employer’s Annual Federal Unemployment
                                  (FUTA) Tax Return (Form 940). Failing to file these
                                  required returns is a common method used to evade
                                  employment taxes.
                                  For Tax Year (TY) 2001, the Internal Revenue Service
                                  (IRS) estimated the gross tax gap1 attributable to the
                                  underreporting and underpaying of employment taxes was
                                  $73.3 billion. In all likelihood, however, this amount
                                  substantially understates the employment tax gap because
                                  the IRS has no estimate of the unpaid taxes attributable to
                                  the nonfiling of employment tax returns, although it
                                  believes the amount is likely to be significant. An IRS
                                  study2 identified approximately 5.8 million nonfiled




                                  1
                                    The gross tax gap is the difference between the taxes taxpayers owe
                                  the Federal Government and the amount of taxes they voluntarily pay.
                                  The tax gap totals are for all taxpayers, as the IRS did not estimate the
                                  amount for employment tax nonfilers.
                                  2
                                    Project Report: Profile Report for the Employment Tax Nonfiler
                                  Market Segment, Project 20.07, Wage and Investment Division
                                  Customer Research Group 1, dated December 2000.
                                                                                                     Page 1
Opportunities Exist to Improve the Effectiveness and Efficiency
              of the Automated 6020(b) Program

                     employment tax returns in 1997. Approximately 97 percent3
                     of these nonfiled returns were Forms 941 and 940.
                     When an employment tax return is not filed when required,4
                     the IRS sends one or more delinquency notices requesting
                     the employer to file the return or explain why the return is
                     not required. If the nonfiling condition is not successfully
                     resolved, a Taxpayer Delinquency Investigation (TDI)5 is
                     assigned to the Automated Collection System (ACS).6 If the
                     TDI is not resolved through telephone calls by the ACS
                     function, the case may be assigned to the Automated
                     6020(b) Program if it meets certain administratively set
                     criteria.
                     Internal Revenue Code (I.R.C.) Section (§) 6020(b)7
                     provides the IRS with the authority to prepare and process
                     certain returns for a nonfiling business taxpayer if the
                     taxpayer appears to be liable for the return, the person
                     required to file the return does not file it, and attempts to
                     secure the return have failed.8 The Automated 6020(b)
                     Program generates a letter to the employer providing a
                     proposed tax assessment that is largely based on the
                     assessed taxes on the last return filed by the taxpayer. If the
                     taxpayer does not respond, the IRS will prepare the tax
                     return on behalf of the taxpayer and assess the proposed
                     taxes pursuant to its authority under I.R.C. § 6020(b).



                     3
                       Other employment tax returns are the Employer’s Annual Federal Tax
                     Return for Agricultural Employees (Form 943), Annual Return of
                     Withheld Federal Income Tax (Form 945), and Annual Withholding Tax
                     Return for U.S. Source Income of Foreign Persons (Form 1042).
                     4
                       The IRS identifies delinquent returns by making periodic computer
                     comparisons of its record of return filings and return filing requirements.
                     5
                       A TDI involves a taxpayer who has not filed a required tax return.
                     6
                       The ACS is a computerized inventory system that maintains certain
                     balance due accounts and return delinquency investigations. The ACS
                     function attempts to resolve these cases by contacting the taxpayers by
                     telephone.
                     7
                       I.R.C. § 6020(b) (2004).
                     8
                       I.R.C. § 6020(b) also gives the IRS authority to prepare individual
                     income tax returns. The Automated Substitute for Return Program
                     prepares delinquent individual income tax returns based on information
                     documents received from employers and financial institutions reporting
                     wages, dividends, interest, nonemployee compensation, and other types
                     of income.
                                                                                       Page 2
            Opportunities Exist to Improve the Effectiveness and Efficiency
                          of the Automated 6020(b) Program

                                 These returns do not require issuance of a Statutory Notice
                                 of Deficiency.
                                 To perform this audit, we interviewed IRS managers and
                                 program analysts and reviewed management information
                                 system reports and other documentation related to the
                                 operation of the Automated 6020(b) Program. Some of the
                                 data used in this report came from various IRS reports. We
                                 did not verify the accuracy of the information from those
                                 sources. This review was performed at the Small
                                 Business/Self-Employed (SB/SE) Division Headquarters
                                 office in New Carrollton, Maryland, and at the consolidated
                                 Automated 6020(b) Program Unit in Ogden, Utah, during
                                 the period January through August 2004. The audit was
                                 performed in accordance with Government Auditing
                                 Standards. Detailed information on our audit objective,
                                 scope, and methodology is presented in Appendix I. Major
                                 contributors to the report are listed in Appendix II.
                                 Due to various organizational changes, programming
The Effectiveness of the
                                 problems, and funding issues, the IRS has not extensively
Automated 6020(b) Program
                                 used its Automated 6020(b) Program throughout most of the
Has Been Limited by
                                 past decade to address filing noncompliance. As shown in
Organizational Changes,
                                 Figure 1, the number of direct hours the IRS applied to the
Programming Problems, and
                                 Automated 6020(b) Program steadily declined from a high
Funding Issues
                                 of 43,209 in Fiscal Year (FY) 1993 to a low of 1,151 in
                                 FY 2001 before increasing to 1,309 in FY 2002. The
                                 number of direct hours applied increased to 6,542 in
                                 FY 2003 after the Automated 6020(b) Program was
                                 centralized at the Ogden Campus.9




                                 9
                                  The campuses are the data processing arm of the IRS. They process
                                 paper and electronic submissions, correct errors, and forward data to the
                                 Computing Centers for analysis and posting to taxpayer accounts. A
                                 campus is organized into three functions: Submission Processing,
                                 Accounts Management, and Compliance Services.
                                                                                                  Page 3
Opportunities Exist to Improve the Effectiveness and Efficiency
              of the Automated 6020(b) Program

                      Figure 1: Resources Applied to the Automated 6020(b) Program
                                             FYs 1993-2003


                                                 Direct Hours for the Automated 6020(b) Program
                       50,000 43,209
                       45,000
                       40,000        32,542
                       35,000
                       30,000                                   19,929
                       25,000              20,271        19,221
                       20,000                     15,441
                                                                     12,797
                       15,000
                                                                                              6,542
                       10,000                                               4,808
                                                                                  1,151 1,309
                        5,000
                            0
                               FY 1 9 9 3

                                            FY 1 9 9 4

                                                         FY 1 9 9 5

                                                                      FY 1 9 9 6

                                                                                   FY 1 9 9 7

                                                                                                FY 1 9 9 8

                                                                                                             FY 1 9 9 9

                                                                                                                          FY 2 0 0 0

                                                                                                                                       FY 2 0 0 1

                                                                                                                                                    FY 2 0 0 2

                                                                                                                                                                 FY 2 0 0 3
                     Source: Statistical reports from IRS staff.

                     Figure 2 shows that, as a direct result of the decline in
                     resources, the taxes assessed by the Automated 6020(b)
                     Program also declined from $206.8 million in FY 1998 to
                     $3.6 million in FY 2002. The tax assessments increased to
                     $60.6 million in FY 2003.




                                                                                                                                                             Page 4
Opportunities Exist to Improve the Effectiveness and Efficiency
              of the Automated 6020(b) Program

                           Figure 2: Taxes Assessed by the Automated 6020(b) Program
                                                 FYs 1996-2003

                                  Taxes Assessed by the Automated 6020(b) Program

                          $250,000,000


                          $200,000,000


                          $150,000,000


                          $100,000,000


                           $50,000,000


                                   $0
                                         FY 1996



                                                   FY 1997



                                                             FY 1998



                                                                       FY 1999



                                                                                 FY 2000



                                                                                           FY 2001



                                                                                                     FY 2002



                                                                                                               FY 2003
                     Source: Collection Activity Reports (FYs 1996-2003).

                     The decline in resources applied to the Automated 6020(b)
                     Program can be attributed to various problems the IRS
                     encountered in creating a national program. In the early
                     1990s, the IRS decided to create a national program in
                     response to the need for standardization and uniformity
                     among the 6020(b) Programs that were being locally
                     operated in 10 campuses, formerly referred to as service
                     centers. As part of this effort, the IRS planned to centralize
                     the Automated 6020(b) Program at its Detroit Computing
                     Center (DCC)10 by October 1993.
                     From the outset, however, the implementation of the
                     Automated 6020(b) Program at the DCC was beset with
                     problems. On June 10, 1995, the first 2 IRS service centers
                     transferred their 6020(b) Program work to the DCC and,
                     2 weeks later, 3 additional service centers attempted to
                     transfer their work. These attempts uncovered major
                     programming problems, including the absence of a program


                     10
                       IRS Computing Centers support tax processing and information
                     management through a data processing and telecommunications
                     infrastructure. The impetus for centralizing the Automated 6020(b)
                     Program at the DCC was the need for replacement work after the DCC
                     had lost its payroll processing responsibilities for the IRS.
                                                                                                               Page 5
Opportunities Exist to Improve the Effectiveness and Efficiency
              of the Automated 6020(b) Program

                     that would calculate wages and tax assessments based on
                     prior return information.
                     As a result, the IRS decided to move the 6020(b) Program
                     work back to its 10 service centers and made plans to pilot a
                     new Automated 6020(b) Program at its Philadelphia Service
                     Center in January 1996, with implementation at the other
                     service centers to begin the following month. However,
                     several programming problems and print capability
                     problems delayed implementation in the service centers for
                     more than a year.
                     Because it was a very low-priority, discretionary program
                     that did not always receive sufficient funding, the
                     Automated 6020(b) Program was worked on an “ad hoc”
                     basis in some service centers. One service center did not
                     work the Program for months and, once the Program was
                     started, the employees had no experience in Automated
                     6020(b) Program processing. In addition, the DCC was not
                     applying sufficient resources to accomplish programming
                     changes, and the Automated 6020(b) Program was shut
                     down for an extended time until it could be made Y2K11
                     compliant.
                     In January 2001, the IRS decided to consolidate the
                     Automated 6020(b) Program at its Ogden Campus
                     Collections Operation as part of a workload balancing
                     strategy. The consolidation was accomplished in
                     January 2002. A staff of 18 tax examiners was trained in
                     October 2002, and they began working Automated 6020(b)
                     Program cases for taxpayers nationwide in November 2002.
                     Due to the low inventory of cases, however, the staff was
                     reduced to 5 tax examiners on March 31, 2003.
                     Some of the inventory problems occurred because the ACS
                     and the Automated 6020(b) Program computer system are
                     not fully compatible. For example, the Automated 6020(b)
                     Program received invalid information from the ACS that
                     included Taxpayer Identification Numbers with alpha
                     characters instead of the required numeric characters, cases

                     11
                       Because computers were designed to recognize a change in only the
                     last two digits of any given year, many were incapable of accurately
                     recognizing the year 2000 (Y2K) without modifications in hardware
                     and/or software.
                                                                                   Page 6
              Opportunities Exist to Improve the Effectiveness and Efficiency
                            of the Automated 6020(b) Program

                                   with nonexistent tax periods, and cases that were over
                                   10 years old. The Automated 6020(b) Program also
                                   received inaccurate ACS data for a 6-week period in
                                   February and March 2004, and the weekly downloads were
                                   halted. At the end of this period, all of the cases were
                                   downloaded from the ACS.
                                   In addition, potential Automated 6020(b) Program cases
                                   were not included with the cases sent to an outside vendor
                                   for telephone number research. Also, formatting problems
                                   occurred in December 2002 after several programs,
                                   including the Automated 6020(b) Program, were switched
                                   from one computer system to another.
                                   Despite these problems, IRS management made adjustments
                                   to ensure the Automated 6020(b) Program was workable:
                                        •   In June 2003, manual telephone number look-ups
                                            were implemented for potential Automated 6020(b)
                                            Program cases.
                                        •   In September 2003, programming changes were
                                            made to include potential Automated 6020(b)
                                            Program cases with the ACS function cases sent to a
                                            vendor for telephone number research.
                                        •   In March 2004, procedures were changed to allow
                                            incoming cases from the ACS with no telephone
                                            numbers to be routed to the Automated 6020(b)
                                            Program Unit as an additional source of potentially
                                            workable cases.
                                   The Automated 6020(b) Program resides on the Inventory
The Automated 6020(b) Program
                                   Delivery System (IDS). A download tape from the ACS is
Operations Are Hampered by
                                   loaded onto the IDS after the weekly Integrated Data
Inefficient Manual Processes
                                   Retrieval System (IDRS)12 update of the ACS. The IDS is a
                                   stand-alone system, and the download allows the IDS to
                                   maintain the most current taxpayer information available for
                                   the Automated 6020(b) Program.
                                   An efficient Automated 6020(b) Program system would be
                                   one in which the taxes would be automatically computed
                                   and the tax proposal letters would be automatically

                                   12
                                     The IDRS is a system which enables IRS employees to have
                                   instantaneous visual access to certain taxpayer accounts.
                                                                                                Page 7
Opportunities Exist to Improve the Effectiveness and Efficiency
              of the Automated 6020(b) Program

                     generated for most of the incoming workload. However,
                     this is not the case with the existing system. Instead, the
                     operation of the Automated 6020(b) Program remains a
                     significant challenge for IRS management because of an
                     outdated computer system that results in inefficient manual
                     work processes.
                     When the weekly download occurs, cases that do not meet
                     the criteria for Automated 6020(b) Program processing are
                     identified on reject lists. In addition, all new cases are
                     identified on new accounts lists. The rejected cases and
                     most of the new cases require manual research by tax
                     examiners before tax proposal letters can be computer
                     generated.
                     Rejected cases are researched and, if subsequently
                     accepted by the Automated 6020(b) Program, are
                     manually researched again
                     From November 24, 2003, through March 25, 2004, the
                     total weekly inventory of rejected cases ranged from a low
                     of 7,161 to a high of 9,353. As of March 25, 2004, there
                     were 6,890 taxpayer entities in 2 categories of rejected cases
                     that are considered critical because they are a source of
                     inventory.13 The remaining categories of rejected cases are
                     considered a cleanup of the ACS database.
                     During the first 6 months of FY 2004, tax examiners spent
                     57 percent of their time (1,494 of 2,618 staff hours) working
                     the reject lists.14 The tax examiners must manually research
                     the IDRS to identify the specific tax periods for the nonfiled
                     returns and to evaluate wage and tax credit information to
                     determine if there would be sufficient tax due for processing
                     by the Automated 6020(b) Program. The tax examiners
                     must update the IDRS if the case should be closed as not
                     liable or update the ACS to reflect the next ACS inventory
                     designation if there is potential tax due. Those cases with
                     tax potential will try to load back into the Automated


                     13
                        Subsequent to our onsite visit in March 2004, additional tax
                     examiners were assigned to work the reject lists. As of
                     July 12, 2004, there were 1,762 rejected cases in the 2 critical
                     categories.
                     14
                        This excludes the 6-week period from November 23, 2003, through
                     January 3, 2004, when documentation was not available.
                                                                                  Page 8
Opportunities Exist to Improve the Effectiveness and Efficiency
              of the Automated 6020(b) Program

                     6020(b) Program in a subsequent week into a status that
                     requires additional manual research before they are ready
                     for computer-generated tax proposal letters to be sent to the
                     taxpayers.
                     At the time we completed our review, management had
                     requested programming changes for incoming cases as a
                     means of filtering out some of the cases not meeting
                     Automated 6020(b) Program requirements.
                     Most cases accepted by the Automated 6020(b) Program
                     system require manual research prior to having the tax
                     proposal letters sent to the taxpayers
                     In addition to the cases that reject during the weekly
                     download from the ACS, most of the cases that successfully
                     load onto the Automated 6020(b) Program system still
                     require manual research. Figure 3 shows the results of the
                     4 weekly downloads between December 22, 2003, and
                     August 9, 2004, for which detailed information was
                     available. In total, only 882 (34 percent) of 2,557 cases
                     automatically loaded into the Automated 6020(b) Program
                     system.
                                 Figure 3: Low Volume of Automatic Cases

                                900                                        Automatic Cases
                                800
                                                                           Total Download
                                700
                                600
                       Incoming
                                500
                        6020(b)
                         Cases 400
                                300
                                200
                                100
                                  0
                                      Dec. 22, July 12, July 19, Aug. 9,
                                       2003     2004     2004     2004
                                               Download Date


                     Source: IRS program analyst query of the Automated 6020(b) Program
                     system.

                     The “nonautomatic” cases include new accounts as well as
                     other accounts for which the tax examiners need to research
                     the IDRS to determine the amount of wages, analyze credits,
                     and ensure the proposed tax is above the prescribed
                     tolerance. The nonautomatic cases also include Power of
                                                                                   Page 9
Opportunities Exist to Improve the Effectiveness and Efficiency
              of the Automated 6020(b) Program

                     Attorney (POA) cases for which the tax examiners must
                     take additional steps to research the POA information on the
                     IDRS and then manually enter the POA’s name and address
                     onto the Automated 6020(b) Program system. After
                     perfecting the nonautomatic cases to make them workable,
                     the tax examiners must then manually change the status on
                     the Automated 6020(b) Program system so it is ready for the
                     weekly run of tax proposal letters.
                     Tax proposal letters are manually researched and
                     screened prior to mailing
                     Tax proposal letters15 are manually screened and researched
                     to ensure they are accurate and are sent to only those
                     taxpayers who still need to be reminded to file their
                     delinquent returns. The tax examiners research the IDRS
                     for each tax period covered in the tax proposal letter to
                     ensure the tax returns have not been filed and processed
                     during the last weekend update. In addition, the tax
                     examiners research the IDRS for evidence of any balance
                     due accounts assigned to the ACS function or to the
                     Collection Field function (CFf);16 bankruptcy status; or
                     conditions, such as an ongoing tax audit, that freeze activity
                     on a taxpayer’s account. If any of these conditions are
                     found, the tax examiners are instructed to destroy the tax
                     proposal letter and manually update the status on the
                     Automated 6020(b) Program system.
                     Some computer-generated tax returns completed under the
                     I.R.C. § 6020(b) authority show $0 balance due and must be
                     manually destroyed during the screening process. We were
                     informed that this could occur if a tax examiner erroneously
                     closed an input screen on the Automated 6020(b) Program
                     system and proceeded to the next screen before the action
                     was completed.




                     15
                        The tax proposal letter has enclosures which include appeal rights and
                     computer-generated tax returns completed under the I.R.C. § 6020(b)
                     authority for each delinquent tax period.
                     16
                        The CFf is the unit consisting of field employees who handle personal
                     contacts with taxpayers to collect delinquent accounts or secure nonfiled
                     tax returns.
                                                                                    Page 10
Opportunities Exist to Improve the Effectiveness and Efficiency
              of the Automated 6020(b) Program

                     Additional problems provide further support for a new
                     Automated 6020(b) Program system
                     Cases involving taxpayers with a POA have separate letters
                     and labels generated for the taxpayer and the POA.
                     However, the letter is not sent directly to the POA due to
                     system limitations that will not allow both the taxpayer and
                     the POA names to be printed on the same letter. To
                     compensate, both letter packages are sent to the taxpayer
                     with a stuffer stating, “This package has been printed in
                     duplicate. The second copy is for your designated power of
                     attorney.” Any delays by taxpayers in forwarding the letters
                     to their POAs lessen the time period to act before the IRS
                     will begin processing the computer-assessed Automated
                     6020(b) Program return.
                     The database for the Automated 6020(b) Program has limits
                     on its online query capability. In addition, the management
                     information reports for the Automated 6020(b) Program
                     system did not always produce correct data. At the time of
                     our review, for example, the Management Information
                     Summary Report understated the in-process inventory
                     because it erroneously excluded counts from two of seven
                     Automated 6020(b) Program work statuses. The
                     Management Information Summary Report also had
                     inaccurate counts of the downloaded tax module receipts
                     from the ACS.
                     The IRS has not completed a security accreditation for
                     the computer system supporting the Automated 6020(b)
                     Program
                     Certification and accreditation, as defined and required by
                     the Office of Management and Budget (OMB) for all
                     Federal Government automated information systems,17 is a
                     process to provide assurance that adequate security controls
                     are in place over computer systems. Certification is the
                     comprehensive evaluation of the technical and nontechnical
                     security controls and the identification of any weaknesses
                     with those controls or lack thereof. Accreditation is an
                     authorization granted by a management official to operate
                     the system based on the evaluation of the security controls.

                     17
                       OMB Circular A-130, Management of Federal Information
                     Resources, dated February 1996.
                                                                               Page 11
               Opportunities Exist to Improve the Effectiveness and Efficiency
                             of the Automated 6020(b) Program

                                    Systems should be certified and accredited before being
                                    implemented. Systems should also be certified and
                                    accredited at least every 3 years thereafter or when a
                                    significant change is made that affects the system,
                                    whichever occurs first.
                                    The computer system supporting the Automated 6020(b)
                                    Program was unconditionally certified on
                                    September 26, 2002. At the time of our review in 2004,
                                    however, we were informed that the accreditation had not
                                    been completed. Because no IRS management official is
                                    accountable for the security of those systems that have not
                                    been accredited, unaccredited systems are more likely to
                                    become operational with known security vulnerabilities,
                                    thus placing the systems and their data at risk.18

                                    Recommendation

                                    1. To minimize the manual processes associated with the
                                       current Automated 6020(b) Program processing, the
                                       Commissioner, SB/SE Division, should replace the
                                       computer system supporting the Automated 6020(b)
                                       Program. This should be an integrated system that
                                       interfaces with the ACS and IDRS or a system that can
                                       receive inventory directly from the IDRS.
                                    Management’s Response: The Commissioner,
                                    SB/SE Division, recognized the gains that can be achieved
                                    by interfacing the Automated 6020(b) Program system with
                                    the ACS and IDRS. Several systemic change requests to
                                    address this concern have been submitted, and the changes
                                    will be operational in 2006.
                                    In addition to its I.R.C. § 6020(b) authority to prepare
Opportunities Exist to Expand
                                    employment tax returns for nonfiling taxpayers, the IRS has
the Inventory of the Automated
                                    I.R.C. authority to prepare individual income tax returns.
6020(b) Program
                                    The Automated Substitute for Return (ASFR) Program is
                                    used for this purpose. In FY 2003, there were
                                    83,753 individual income tax cases assessed by the
                                    SB/SE Division ASFR Program – more than 7 times the


                                    18
                                      The Certification and Accreditation of Computer Systems Should
                                    Remain in the Computer Security Material Weakness (Reference
                                    Number 2004-20-129, dated August 2004).
                                                                                                Page 12
Opportunities Exist to Improve the Effectiveness and Efficiency
              of the Automated 6020(b) Program

                     11,109 employment tax cases assessed by the Automated
                     6020(b) Program.
                     Figure 4 shows the SB/SE Division ASFR Program assessed
                     $1.5 billion in net taxes19 during FY 2003 – more than
                     38 times the $39 million in net taxes assessed by the
                     Automated 6020(b) Program. The average net tax
                     assessment of $18,014 by the SB/SE Division ASFR
                     Program was also considerably higher than the average net
                     tax assessment of $3,522 by the Automated 6020(b)
                     Program.
                          Figure 4: ASFR and Automated 6020(b) Program Comparison
                                                  FY 2003



                                         Net Assessed,
                                          $39,124,000




                                                                        ASFR
                                                                        Automated 6020(b)




                                               Net Assessed,
                                               $1,508,705,000




                     Source: Enforcement Revenue Information System,20 Cycle 200417.

                     While these data suggest the SB/SE Division ASFR
                     Program is a far more effective compliance tool than the
                     Automated 6020(b) Program, it must be kept in mind that
                     employment tax nonfilers pose particular problems because
                     the IRS has no reliable indicator that a return is due with a
                     predictor of the amount of tax at stake. Since there are
                     legitimate reasons for not filing, such as termination of the
                     business, the IRS assumes some inherent risk in expending
                     time and resources on cases for which no return may be due.


                     19
                       Net taxes are the result of taxes assessed less taxes abated.
                     20
                       A database that tracks the amount and timing of revenue from all IRS
                     enforcement actions over time.
                                                                                  Page 13
Opportunities Exist to Improve the Effectiveness and Efficiency
              of the Automated 6020(b) Program

                     Nevertheless, we believe the IRS has opportunities to reduce
                     filing noncompliance by revising the case creation criteria
                     for the Automated 6020(b) Program to include higher-dollar
                     employment tax cases that may currently be residing
                     unworked in the Queue21 as well as excise tax returns.
                     The Automated 6020(b) Program works lower-dollar
                     employment tax cases
                     When an employer does not file a return, the IRS sends one
                     or more return delinquency notices. If the return cannot be
                     secured or the nonfiling condition satisfactorily resolved, a
                     TDI will be assigned for further action if the case meets the
                     risk-level criteria developed by the IRS. These risk-level
                     criteria, which include the dollar amount of the last filed
                     return, were developed to identify workload for assignment
                     to the ACS and CFf and to identify workload that should be
                     assigned to the Queue for potential future selection by the
                     ACS or CFf.
                     Currently, only “stand-alone” TDIs22 that are unresolved by
                     the ACS and meet a relatively narrow low-dollar criterion
                     are assigned to the Automated 6020(b) Program. As a
                     result, the download from the ACS to the Automated
                     6020(b) Program system for FY 2004 (through June 2004)
                     was limited to only 26,201 cases involving potentially
                     nonfiled Forms 941 and 940.
                     Based on analysis of Collection Activity Reports (CAR)23
                     for the same 9-month period of FY 2004, we estimate that
                     TDIs for approximately 562,000 Forms 941 and 940 were




                     21
                        The Queue is an automated holding file for lower-priority cases.
                     22
                        A stand-alone TDI is one for which there are no Taxpayer Delinquent
                     Accounts (i.e., balance due accounts) involving the same taxpayer.
                     23
                        The CARs are IRS management information reports that provide
                     information about Collection function inventory and disposition.
                                                                                  Page 14
Opportunities Exist to Improve the Effectiveness and Efficiency
              of the Automated 6020(b) Program

                     assigned to the CFf or the Queue.24 Based on the CARs, we
                     also estimate the CFf closed TDIs for Forms 941 and 940 on
                     299,781 tax periods during the same 9-month period.25
                     These totals include TDIs worked in combination with
                     TDAs for the same taxpayer, as well as stand-alone TDIs,
                     since the CARs do not break down the TDIs by type or
                     dollar level.
                     The majority of the TDI inventory resides in the ACS or the
                     Queue, where it is unlikely to be worked due to resource
                     constraints. Based on the CARs, we estimate the Queue
                     inventory, as of June 2004, included 1.7 million TDIs
                     involving nonfiled employment tax returns.26
                     The potential tax due (based on the last return filed amount)
                     from the stand-alone TDIs assigned to the Queue is greater
                     than the potential tax due from the TDIs worked by the ACS
                     function. In all likelihood, there is a considerable pool of
                     stand-alone employment tax TDIs in the Queue that would
                     otherwise not be assigned to the CFf and that could, instead,
                     be made available for the Automated 6020(b) Program. By
                     raising the administratively set dollar ceiling to increase the
                     number of stand-alone TDIs assigned to the Automated
                     6020(b) Program inventory from approximately 26,000 to
                     98,000 cases, we conservatively estimate the IRS could
                     reduce the employment tax gap by $107 million per year.
                     The number of additional tax examiners needed to work this
                     increased inventory would bring the Automated 6020(b)


                     24
                        To arrive at this estimate, we added the CFf’s total TDI receipts of
                     263,659 to the total TDI receipts of 642,719 that were assigned to the
                     Queue. Because cases are often assigned to the Queue and then
                     transferred to the CFf, we subtracted the 237,134 tax periods that were
                     transferred from the Queue to the CFf. The CARs do not break down
                     TDI receipts by type of tax return. Therefore, we reviewed the closing
                     codes in the CARs which showed that Forms 941 and 940 represented
                     84 percent of the business return TDI tax periods closed during that
                     period. We applied this percentage to estimate the receipts of TDI tax
                     periods for Forms 941 and 940.
                     25
                        The total TDI closures for business TDIs of 380,876 were reduced by
                     23,994 nonwork closures (surveyed or shelved) which resulted in
                     356,882 TDIs. We multiplied the 356,882 TDIs by the 84 percent factor
                     mentioned in footnote 24, which resulted in 299,781 TDIs.
                     26
                        The actual total was 2,027,287 TDIs in the Queue. We multiplied this
                     number by the 84 percent factor explained in footnote 24 to arrive at
                     1,702,921 TDIs.
                                                                                   Page 15
Opportunities Exist to Improve the Effectiveness and Efficiency
              of the Automated 6020(b) Program

                     Program staffing back to the approximate level that was
                     originally trained upon consolidation of the Program in the
                     Ogden Campus. See Appendix IV for details.
                     The I.R.C. § 6020(b) authority could be applied to other
                     types of business returns
                     In addition to the authority to prepare various types of
                     employment tax returns, I.R.C. § 6020(b) gives the IRS the
                     authority to prepare excise tax returns such as the Quarterly
                     Federal Excise Tax Return (Form 720) and the Heavy
                     Highway Vehicle Use Tax Return (Form 2290). The IRS
                     previously used its I.R.C. § 6020(b) authority to prepare
                     excise tax returns. Since the Automated 6020(b) Program
                     was centralized at the Ogden Campus in 2002, however, the
                     IRS has worked only employment tax returns.
                     More than $69 billion was collected from excise tax returns
                     in FY 2003.27 The IRS estimated that 153,400 Forms 720
                     and 651,300 Forms 2290 would be filed in Calendar Year
                     (CY) 2004.
                     Relatively little is known about excise tax filing compliance.
                     The IRS has made no estimate of the tax gap that is
                     attributable to the nonfiling of excise tax returns. However,
                     an IRS study28 of the excise tax nonfiler market segment,
                     completed in June 2000, identified 206,000 returns that
                     were not timely filed in CY 1997, including almost
                     16,000 nonfilings that were unresolved. Further, the study
                     found the resolution rate29 on nonfiled Forms 720 was only
                     about 75 percent.
                     If the computer system that supports the Automated 6020(b)
                     Program was replaced with a more efficient and streamlined
                     process, there would be an opportunity to expand the

                     27
                        IRS Statistics of Income Bulletin (Winter 2003-2004). In addition to
                     the taxes collected from Forms 720 and 2290, the total collections
                     include those from Occupational Tax and Registration Returns for
                     Wagering (Form 11-C) and Monthly Tax Returns for Wagers
                     (Form 730).
                     28
                        Profile Report, Excise Tax Nonfiler Market Segment, Project 20.10,
                     Arkansas-Oklahoma District Office Research and Analysis, dated
                     June 15, 2000.
                     29
                        The resolution rate is the percentage of nonfiler returns that were
                     resolved by either the filing of a return or the determination that the
                     taxpayer is not liable to file a return.
                                                                                    Page 16
Opportunities Exist to Improve the Effectiveness and Efficiency
              of the Automated 6020(b) Program

                     inventory beyond employment taxes as a means of reducing
                     taxpayer noncompliance and the tax gap in the excise tax
                     area.

                     Recommendations

                     To increase the impact of the Automated 6020(b) Program
                     as a compliance tool for reducing the tax gap, the
                     Commissioner, SB/SE Division, should:
                     2. Raise the dollar level of the risk-based criteria for
                        stand-alone TDI cases as a means of increasing the
                        workload coming into the Automated 6020(b) Program
                        with cases that would otherwise remain unworked in the
                        Queue.
                     Management’s Response: The Commissioner,
                     SB/SE Division, will review TDI case inventories to
                     determine the potential of increasing the workload coming
                     into the Automated 6020(b) Program. Although the
                     Commissioner agreed the Automated 6020(b) Program
                     could create a potential increase in revenue, the
                     Commissioner stated the Program’s primary goal is to
                     encourage taxpayers to file outstanding returns or determine
                     whether a tax liability exists. Therefore, the Commissioner
                     disagreed with the potential $534.8 million increase in
                     revenue over a 5-year period because the potential
                     assessment may not equate to the concomitant amount of
                     additional revenue collected.
                     Office of Audit Comment: Regarding the recommendation
                     to raise the dollar level of the risk-based criteria for
                     stand-alone TDI cases to increase the workload coming into
                     the Automated 6020(b) Program, we agree the Automated
                     6020(b) Program is not intended to create revenue.
                     However, our analysis showed that increasing the
                     administratively set dollar ceiling would increase the
                     number of cases coming into the Automated 6020(b)
                     Program, which would potentially result in an increase in
                     revenue.
                     3. Modify the programming to add TDIs involving
                        nonfiled excise tax returns (i.e., delinquent Forms 2290
                        and 720) to the Automated 6020(b) Program.

                                                                         Page 17
              Opportunities Exist to Improve the Effectiveness and Efficiency
                            of the Automated 6020(b) Program

                                   Management’s Response: The Commissioner,
                                   SB/SE Division, will review TDI case inventories involving
                                   excise tax returns to determine the potential of increasing
                                   the workload coming into the Automated 6020(b) Program.
                                   The Commissioner will also explore additional
                                   opportunities to increase the cases worked by the
                                   Automated 6020(b) Program.
                                   Employers use Forms 940 to report Federal unemployment
Overstated Tax Assessments
                                   taxes. These taxes, with state unemployment systems,
Were Made on Unemployment
                                   provide for payments of unemployment compensation to
Tax Returns Prepared by the
                                   workers who have lost their jobs. Most employers pay both
Automated 6020(b) Program
                                   a Federal and a state unemployment tax. Only the employer
                                   pays Federal unemployment tax; it is not withheld from
                                   employee wages.
                                   For TYs 1988 through 2003, the Federal unemployment tax
                                   rate was 6.2 percent, and only the first $7,000 paid to each
                                   employee was subject to the tax. Generally, a credit up to
                                   5.4 percent could be taken for amounts paid into state
                                   unemployment funds. If an employer was entitled to the
                                   maximum 5.4 percent credit, the net Federal unemployment
                                   tax rate after the credit was 0.8 percent.
                                   The Automated 6020(b) Program relies on formulas to
                                   determine the proposed tax for nonfiled unemployment tax
                                   returns. This involves an analysis of the amount of wages
                                   reported on the unemployment tax returns that were
                                   previously filed by the employer and an analysis of any
                                   available credits for the delinquent tax period.
                                   Generally, however, the formula used by the Automated
                                   6020(b) Program for computing unemployment taxes
                                   simply multiplied the maximum tax rate of 6.2 percent by
                                   the entire amount of wages paid to all employees for the
                                   year. As a result, overstated unemployment tax assessments
                                   were made on some IRS-prepared returns.
                                   We identified and reviewed all 47 cases in which
                                   employment taxes of $20,000 or more were assessed by the
                                   Automated 6020(b) Program during the period




                                                                                        Page 18
Opportunities Exist to Improve the Effectiveness and Efficiency
              of the Automated 6020(b) Program

                     October 1, 2002, through December 31, 2003.30 We found
                     the tax assessments on 36 of the 47 IRS-prepared returns
                     likely were far in excess of the taxpayers’ actual liabilities.31
                     These 36 unemployment tax assessments totaled $4,561,767
                     and averaged $126,716 per return. The unemployment
                     taxes on the prior year returns filed by these 36 employers
                     totaled $135,276 and averaged only $3,758 per return.
                     Similarly, the unemployment taxes on the subsequent year
                     returns filed by these 36 employers totaled $197,060 and
                     averaged only $5,474 per return. Figure 5 compares the
                     unemployment taxes on the IRS-prepared returns with the
                     unemployment taxes reported on the returns filed by these
                     36 taxpayers.




                     30
                        The audit team used “total tax of $20,000 or more” as its dollar
                     criteria for identifying the 47 substitute unemployment tax returns
                     prepared by the IRS.
                     31
                        The unemployment tax assessments on 11 IRS-prepared returns did
                     not appear to be overstated. For these cases, the tax computations
                     generally considered prior assessments, credits, and/or an inflation
                     factor.
                                                                                  Page 19
Opportunities Exist to Improve the Effectiveness and Efficiency
              of the Automated 6020(b) Program

                           Figure 5: Comparison of Unemployment Tax Assessments -
                                     36 Returns Prepared by the IRS and the
                              Prior and Subsequent Returns Filed by the Employers

                                     $140,000

                                     $120,000

                                     $100,000

                           Average    $80,000
                          Assessed
                           Amount     $60,000

                                      $40,000

                                      $20,000

                                           $- 0
                                                  Prior Year Tax      Automated      Subsequent
                                                                   6020(b) Program    Year Tax
                                                                         Tax
                                                           Form 940 Taxes Over 3 Years


                     Source: Treasury Inspector General for Tax Administration analysis of
                     IRS Master File32 data for 36 cases with Automated 6020(b) Program
                     assessments of $20,000 or more.

                     Overstated unemployment tax assessments on IRS-prepared
                     returns can result in unnecessary burden for the employers
                     as well as unnecessary work and unfavorable publicity for
                     the IRS. At the time we completed our review, the IRS had
                     abated the entire Automated 6020(b) Program assessments
                     on 4 of the 36 tax returns and had abated nearly all of the
                     Automated 6020(b) Program assessments for 14 additional
                     tax returns. The abatements on these 18 returns totaled
                     almost $3.1 million and averaged nearly $172,000 per
                     return.
                     Of the remaining 18 unemployment tax assessments,
                     17 were in TDA status with balances due that ranged from
                     $12,457 to $535,731 and averaged $120,717. These TDAs
                     would likely be assigned to revenue officers for enforced
                     collection actions. The remaining unemployment tax
                     assessment case was fully paid by the taxpayer.



                     32
                       The IRS database that stores various types of taxpayer account
                     information. This database includes individual, business, and employee
                     plans and exempt organizations data.
                                                                                          Page 20
              Opportunities Exist to Improve the Effectiveness and Efficiency
                            of the Automated 6020(b) Program

                                   Recommendation

                                   4. The Commissioner, SB/SE Division, should evaluate the
                                      computation used by the Automated 6020(b) Program
                                      for assessing Federal unemployment taxes to include an
                                      analysis of wages, credits, prior assessments, and the
                                      taxpayer’s filing history using an inflation factor as
                                      needed.
                                   Management’s Response: The Commissioner,
                                   SB/SE Division, has evaluated the computation for
                                   assessing FUTA taxes and found that basic systemic
                                   calculations, using a Last Period Satisfied liability to
                                   determine taxable wages, are accurate. To avoid
                                   underestimating the liability amount, the IRS has developed
                                   procedures to use the total amount of wages reported on the
                                   Forms 941 as the basis of its tax assessments.
                                   When an Automated 6020(b) Program tax proposal letter
Improvements Are Needed to
                                   package is returned to the IRS as undelivered mail,
Ensure Undelivered Mail Is
                                   employees are required to check the IDRS for a different
Worked Before Tax Assessments
                                   taxpayer address. If a new address is found, the original tax
Are Made
                                   proposal letter package must be sent with another letter
                                   asking for verification of the new address. If a new address
                                   is not found, the taxpayer’s account must be updated to
                                   show the IRS has been unable to locate the taxpayer. If the
                                   undelivered mail is received after the IRS-prepared
                                   Automated 6020(b) Program return has been processed and
                                   no new address is found, the account is closed as currently
                                   not collectible.
                                   During March 2004, we reviewed undelivered Automated
                                   6020(b) Program tax proposal letter packages for
                                   28 taxpayers covering 76 tax periods. We determined that
                                   57 IRS-prepared Automated 6020(b) Program returns had
                                   been processed for 18 taxpayers before the IRS researched
                                   the undelivered mail packages. These included:
                                      •   Fifteen taxpayers for whom the Automated 6020(b)
                                          Program returns were processed and assessed prior
                                          to the IRS research, which identified no new
                                          addresses. If the undelivered letters had been timely
                                          worked, the cases would have been closed as unable
                                          to locate and no assessments would have been made.

                                                                                        Page 21
Opportunities Exist to Improve the Effectiveness and Efficiency
              of the Automated 6020(b) Program

                        •   Three taxpayers for whom new addresses were
                            found after the Automated 6020(b) Program returns
                            had been processed and assessed. The original tax
                            proposal letter packages with the proposed returns
                            were again sent to the taxpayers, but they were sent
                            to the new addresses after the assessments had been
                            made.
                     The time period for the 18 taxpayers to respond to the initial
                     Automated 6020(b) Program tax proposal letter packages
                     had expired, the IRS-prepared returns were submitted for
                     processing, and the taxes were assessed. For example, the
                     initial tax proposal letter packages for two taxpayers were
                     mailed on September 4, 2003. Tax examiners in the
                     Automated 6020(b) Program Unit researched lists that
                     indicated the time period for a response had expired and
                     there was no record that the taxpayers had sent in tax
                     returns. As a result, the tax examiners updated the status of
                     the cases on the Automated 6020(b) Program system on
                     October 17, 2003, to cause copies of the IRS-prepared
                     returns to be printed and processed. The IRS did not begin
                     researching the undelivered Automated 6020(b) Program
                     tax proposal letter packages until March 2004.
                     Mail is delivered on a daily basis to the main IRS building
                     at the Ogden Campus where it is sorted and delivered to the
                     other Campus buildings, including the building where the
                     Automated 6020(b) Program Unit is located. We were
                     unable to determine when the undelivered mail was
                     delivered to the IRS mailroom and when the letters were
                     routed back to the Automated 6020(b) Program Unit for
                     research.
                     However, we reviewed the Mail Routing Guide and
                     determined that it does not provide timeliness guidelines for
                     handling undelivered mail, does not contain routing
                     procedures for undelivered tax proposal letter packages, and
                     does not always accurately list the appropriate mail stop for
                     the Automated 6020(b) Program Unit.




                                                                           Page 22
Opportunities Exist to Improve the Effectiveness and Efficiency
              of the Automated 6020(b) Program

                     Recommendation

                     5. The Commissioner, SB/SE Division, should ensure the
                        Mail Routing Guide contains specific instructions for
                        the handling and routing of undelivered mail. In
                        addition, controls should be established to ensure
                        undelivered mail designated for the Automated 6020(b)
                        Program Unit is properly routed to its destination.
                     Management’s Response: The Commissioner,
                     SB/SE Division, has taken corrective actions to address this
                     recommendation.




                                                                          Page 23
                 Opportunities Exist to Improve the Effectiveness and Efficiency
                               of the Automated 6020(b) Program

                                                                                                      Appendix I


                           Detailed Objective, Scope, and Methodology

Our overall objective was to determine whether the Internal Revenue Service (IRS) is effectively
using the Automated 6020(b) Program1 to improve filing compliance among business taxpayers.
To meet this objective, we:
I.       Determined whether the Automated 6020(b) Program is effectively designed and used to
         support the IRS strategies and goals to improve filing compliance and to achieve desired
         program results.
         A.       Reviewed the Strategy and Program Plans, the Compliance Operations Program
                  Letter, and other relevant documentation to determine whether IRS management
                  has developed quantifiable objectives, goals, and operational priorities for the
                  Automated 6020(b) Program that are effectively linked to the strategic goals and
                  mission and to the overall nonfiler strategy and/or return delinquency objectives.
         B.       Reviewed documentation and interviewed IRS management officials at the Small
                  Business/Self-Employed Division Headquarters office and at the consolidated
                  Automated 6020(b) Program Unit to identify program measures and determine the
                  methods used to measure program accomplishments.

         C.       Obtained and reviewed management information reports or other documentation
                  on Automated 6020(b) Program staffing, costs, and business results.
         D.       Evaluated the effectiveness of the case selection process for assigning cases to the
                  Automated 6020(b) Program.
         E.       Explored methods for increasing the scope of the leads for the Automated 6020(b)
                  Program, such as using Federal-State Agreements, and for expanding the
                  compliance treatment to other types of business tax returns.
         F.       Evaluated Collection Reengineering and other initiatives to determine their effect
                  on the Automated 6020(b) Program.




1
  The Automated 6020(b) Program is an IRS program authorized to prepare and process returns, under certain
circumstances, for employers who are liable to file certain business returns, but have failed to do so. This Program
generates a letter to the employer providing a proposed tax assessment that is largely based on the assessed taxes
from the last return filed. If the employer does not respond, the Automated 6020(b) Program Unit will prepare the
tax return and assess the proposed taxes pursuant to its authority under Internal Revenue Code Section 6020(b)
(2004).
                                                                                                            Page 24
                 Opportunities Exist to Improve the Effectiveness and Efficiency
                               of the Automated 6020(b) Program

         G.       Determined whether taxpayer rights are adequately protected in the Automated
                  6020(b) Program, the necessary security certification has been completed for the
                  Automated 6020(b) Program, and an updated delegation order is in place.
II.      Determined whether the consolidated Automated 6020(b) Program operations are
         effectively and efficiently carrying out IRS policies and procedures.
         A.       Evaluated the effectiveness of actions taken or planned to ensure an adequate and
                  workable inventory of cases is available.
         B.       Reviewed lists and documentation for incoming cases that were rejected by the
                  Automated 6020(b) Program system to determine whether there was a sufficient
                  reason to close the nonfiler case or to determine the accuracy of the proposed
                  Automated 6020(b) Program assessment. We selected a judgmental sample2 of
                  30 new account cases and 30 rejected cases. The new account sample was
                  obtained from the weekly New Account Centralized Authorization File (CAF)
                  Research Lists dated October 13, 2003, and, November 24, 2003. The New
                  Account sample included 17 cases with a CAF indicator and 13 cases from the
                  New Account Research Lists dated November 24, 2003, and, January 5, 2004.
                  The sample of 30 rejected cases was obtained from 2 priority categories:
                  Insufficient Last Period Satisfied (ILPS) Listings for Master File Tax Code
                  (MFT) 01 (10 cases) and ILPS Listings for MFT 10 (20 cases) that the Automated
                  6020(b) Program Unit worked on February 19, 2004, and March 2, 2004.
         C.       Evaluated the adequacy of the process for ensuring proposed tax assessments are
                  correctly determined based on the best available data. To quantify the extent of
                  the occurrences of overstated unemployment tax assessments identified during the
                  new accounts and correspondence tests, we used the Treasury Inspector General
                  for Tax Administration Data Center Warehouse’s Business Master File3 Complete
                  File 200353 to identify all unemployment tax assessments of $20,000 or more4
                  made by both the Collection Field function (CFf)5 and the Ogden Campus6 to the
                  file of Employer’s Annual Federal Unemployment Tax Return (Form 940) TDI
                  closures with unagreed Automated 6020(b) Program Ogden Campus cases.



2
  For tests described in this appendix, we used judgmental sampling due to resource constraints.
3
  The IRS database that consists of Federal tax-related transactions and accounts for businesses. These include
employment taxes, income taxes on businesses, and excise taxes.
4
  The audit team used “total tax of $20,000 or more” as its dollar criteria for identifying the 47 substitute
unemployment tax returns prepared by the IRS.
5
  The CFf is the unit consisting of field employees who handle personal contacts with taxpayers to collect delinquent
accounts or secure unfiled tax returns.
6
  The campuses are the data processing arm of the IRS. They process paper and electronic submissions, correct
errors, and forward data to the Computing Centers for analysis and posting to taxpayer accounts. A campus is
organized into three functions: Submission Processing, Accounts Management, and Compliance Services.
                                                                                                            Page 25
     Opportunities Exist to Improve the Effectiveness and Efficiency
                   of the Automated 6020(b) Program

D.   Evaluated undelivered tax proposal letter packages received by the Automated
     6020(b) Program Unit on March 1, 2004, through March 23, 2004, to determine
     the effectiveness of the process for handling undelivered tax proposal letter
     packages and to determine whether they are properly researched.
E.   Reviewed a judgmental sample of 30 cases (12 incoming telephone calls and
     28 incoming pieces of correspondence) worked by the Automated 6020(b)
     Program Unit between November 20, 2003, and March 2, 2004, to determine
     whether the inquiries were properly addressed and timely worked.




                                                                             Page 26
              Opportunities Exist to Improve the Effectiveness and Efficiency
                            of the Automated 6020(b) Program

                                                                                  Appendix II


                           Major Contributors to This Report

Philip Shropshire, Acting Assistant Inspector General for Audit (Small Business and Corporate
Programs)
William E. Stewart, Audit Manager
Robert A. Nicely, Lead Auditor
Cynthia Dozier, Senior Auditor
Denise M. Gladson, Auditor
Marcus D. Sloan, Auditor




                                                                                       Page 27
             Opportunities Exist to Improve the Effectiveness and Efficiency
                           of the Automated 6020(b) Program

                                                                           Appendix III


                               Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Small Business/Self-Employed Division SE:S
Director, Campus Compliance Services SE:S:CCS
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Management Controls OS:CFO:AR:M
Audit Liaison: Commissioner, Small Business/Self-Employed Division SE:S




                                                                                Page 28
                 Opportunities Exist to Improve the Effectiveness and Efficiency
                               of the Automated 6020(b) Program

                                                                                                    Appendix IV


                                             Outcome Measures

This appendix presents detailed information on the measurable impact that our recommended
corrective actions will have on tax administration. This benefit will be incorporated into our
Semiannual Report to the Congress.
Type and Value of Outcome Measure:
•   Increased Revenue – Potential; $107 million; over 5 years, $534.8 million in increased net
    tax assessments by raising the dollar ceiling for assigning cases to the Automated 6020(b)
    Program1 (see page 12).
Methodology Used to Measure the Reported Benefit:
By analyzing the weekly Management Information Summary Reports of Automated 6020(b)
Program activity for Fiscal Year (FY) 2004 (through June 2004), we determined that Taxpayer
Delinquency Investigations (TDI)2 for 26,201 tax periods of nonfiled Employer’s Quarterly
Federal Tax Returns (Form 941) and Employer’s Annual Federal Unemployment (FUTA) Tax
Returns (Form 940) had been transferred from the Automated Collection System (ACS)3 to the
Automated 6020(b) Program system during this 9-month period. We also obtained a report of
the Queue4 inventory showing the stand-alone TDIs5 for employment tax returns that were not
assigned for work as of September 2004. This report showed the number of stand-alone TDIs
that exceeded the administratively set dollar ceiling for assignment to the Automated 6020(b)
Program.
Based on analysis of the above reports, increasing the administratively set dollar ceiling by
between 6 and 7 fold would make 35,267 additional taxpayer entities available to the Automated
6020(b) Program. Based on Collection Activity Reports6 for FY 2003, we compared the volume
of tax periods assessed by the Automated 6020(b) Program to the volume of taxpayers


1
  The Automated 6020(b) Program is an Internal Revenue Service (IRS) program authorized to prepare and process
returns, under certain circumstances, for employers who are liable to file certain business returns but have failed to
do so. This Program generates a letter to the employer providing a proposed tax assessment that is largely based on
the assessed taxes from the last return filed. If the employer does not respond, the Automated 6020(b) Program Unit
will prepare the tax return and assess the proposed taxes pursuant to its authority under Internal Revenue Code
Section 6020(b) (2004).
2
  A TDI involves a taxpayer who has not filed a required tax return.
3
  The ACS is a computerized inventory system that maintains certain balance due accounts and return delinquency
investigations. The ACS function attempts to resolve these cases by contacting the taxpayers by telephone.
4
  The Queue is an automated holding file for lower-priority cases.
5
  A stand-alone TDI is one for which there are no Taxpayer Delinquent Accounts (i.e., balance due accounts)
involving the same taxpayer.
6
  The CARs are the IRS management information reports that provide information about Collection function
inventory and disposition.
                                                                                                             Page 29
                 Opportunities Exist to Improve the Effectiveness and Efficiency
                               of the Automated 6020(b) Program

represented by those tax periods. We determined there was an average of 2.04 tax periods per
taxpayer. We multiplied that average by 35,267 taxpayer entities to arrive at 71,945 tax periods.
We compared the increase of 71,945 tax periods to the Automated 6020(b) Program’s workload
of 26,201 tax periods and determined this represented an increase of 275 percent
(71,945 ÷ 26,201). According to the Enforcement Revenue Information System,7 the net tax8
assessed by the Automated 6020(b) Program for FY 2003 was $39,124,000. Therefore,
increasing the number of incoming cases by 275 percent would potentially increase the net tax
assessments from the Automated 6020(b) Program by an estimated $107,430,592
($39,124,000 x 2.7459).
Next, we determined there were five tax examiners handling the Automated 6020(b) Program
inventory during the time of our review. We project that the workload would increase by
275 percent to 98,146 tax periods (26,201 + 71,945). We multiplied the total of 5 tax examiners
by the 275 percent increase to determine that 14 additional tax examiners would be needed to
work the additional inventory. These additional tax examiners would bring the Automated
6020(b) Program staffing back to the approximate level that was originally trained upon
consolidation of the program in the Ogden Campus.9
We determined the tax examiner entry-level (i.e., Grade 7, Step 1) salary, although availability
can occur at any grade. We used the locality pay for the Ogden Campus at that grade level
($33,071) to calculate annual salary costs of $462,994 (14 additional examiners x $33,071). The
projected annual net tax assessment of $107,430,592 was then reduced by the salary costs of
$462,994, which meant the potential increased revenue per year is $106,967,598 or
$534,837,990 over 5 years.




7
  A database that tracks the amount and timing of revenue from all IRS enforcement actions over time.
8
  Net taxes are the result of taxes assessed less taxes abated.
9
  The campuses are the data processing arm of the IRS. They process paper and electronic submissions, correct
errors, and forward data to the Computing Centers for analysis and posting to taxpayer accounts. A campus is
organized into three functions: Submission Processing, Accounts Management, and Compliance Services.




                                                                                                         Page 30
Opportunities Exist to Improve the Effectiveness and Efficiency
              of the Automated 6020(b) Program

                                                              Appendix V


       Management’s Response to the Draft Report




                                                                  Page 31
Opportunities Exist to Improve the Effectiveness and Efficiency
              of the Automated 6020(b) Program




                                                                  Page 32
Opportunities Exist to Improve the Effectiveness and Efficiency
              of the Automated 6020(b) Program




                                                                  Page 33
Opportunities Exist to Improve the Effectiveness and Efficiency
              of the Automated 6020(b) Program




                                                                  Page 34
